        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Evaluation of Costs Charged to the
Washington Savannah River
Company Contract No. DE-AC09-
96SR18500 during Fiscal Years
2010 and 2011




OAS-L-14-03                          March 2014
                                Department of Energy
                                  Washington, DC 20585


                                       March 12, 2014

MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE


FROM:                   Daniel M. Weeber
                        Assistant Inspector General
                           for Audits and Administration
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Evaluation of Costs Charged to
                        the Washington Savannah River Company Contract No.
                        DE-AC09-96SR18500 during Fiscal Years 2010 and 2011"

BACKGROUND

In August 1996, the Department of Energy's (Department) Savannah River Operations Office
awarded the Savannah River Site (SRS) management and operating (M&O) contract to
Washington Savannah River Company (WSRC). Subsequent to completion of work in June
2009, Savannah River Operations Office authorized WSRC to obtain accounting, auditing, legal
and other administrative services from Savannah River Remediation to support the formal
closeout of its contract. In December 2009, the Letter of Credit expired and Savannah River
Operations Office required WSRC to provide invoices for reimbursement of the closeout costs.
Savannah River Operations Office requested the Office of Inspector General review the invoices
and supporting documentation for costs reimbursed to WSRC during Fiscal Years (FYs) 2010
and 2011, including the closeout costs incurred by Savannah River Remediation.

The objective of this audit was to evaluate costs reimbursed to WSRC during FYs 2010 and
2011.

RESULTS OF AUDIT

During the course of our evaluation, nothing came to our attention to indicate that WSRC was
reimbursed for costs that were not consistent with the terms of the contract. During FYs 2010
and 2011, WSRC was reimbursed a total of $601,420 for costs incurred. Detailed invoices,
along with supporting documentation, were submitted to the Savannah River Operations Office
Contracting Officer for review and approval prior to payment.

WSRC was reimbursed $408,425 for direct costs incurred during the M&O performance contract
period. According to records we reviewed, WSRC invoiced $407,425 for equipment and
services obtained through an Inter-Entity Work Order exercised in August 2005, but it was not
reimbursed for these costs until March 2011. We determined that the delay in payment was due
to an oversight that occurred during the Department's transition to a new financial accounting
system. The remaining $1,000 was a reimbursement for participation in a compensation survey
that occurred while WSRC was the M&O contractor at SRS. We verified that participation in
the survey was in compliance with the terms of the contract. Our review of supporting
documentation for these direct costs did not identify any instances in which the reimbursement
for these costs was not consistent with the terms of the contract.

WSRC was also reimbursed $192,995 for services in support of contract closeout. This included
labor costs for personnel performing a variety of administrative activities such as accounting,
reporting, auditing and legal services. We selected and evaluated a statistical sample of these
costs to determine whether the costs were consistent with the activities approved by Savannah
River Operations Office. Our audit of the contract closeout costs did not identify any instances
in which the reimbursement for these costs was not consistent with the terms of the contract.

We did not make any recommendations in this report. We appreciate the cooperation of your
staff during our review.

Attachment

cc:   Deputy Secretary
      Chief of Staff




                                               2
                                                                                     Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to evaluate costs reimbursed to Washington Savannah River
Company (WSRC) during Fiscal Years (FYs) 2010 and 2011.

SCOPE

The audit included all costs reimbursed to WSRC during FYs 2010 and 2011. We performed the
audit between March 2013 and March 2014, at the Savannah River Site near Aiken, South
Carolina. The audit was conducted under Office of Inspector General Project Number
A13SR024.

METHODOLOGY

To accomplish the objective of this audit, we:

     •   Identified and analyzed contract closeout activities approved by Savannah River
         Operations Office;

     •   Reviewed supporting documentation for direct costs reimbursed in FYs 2010 and 2011;

     •   Reviewed a statistical sample of supporting documentation for the contract closeout
         costs that were reimbursed;

     •   Reviewed applicable Federal and Department of Energy regulations and guidance;

     •   Reviewed prior Office of Inspector General and U.S. Government Accountability
         Office reports related to the audit objective;

     •   Reviewed applicable administrative, financial and accounting records; and

     •   Interviewed Savannah River Operations Office and contractor personnel with
         responsibilities over areas related to the audit objective.

To accomplish our audit objective, we evaluated a statistically selected sample of 60 of 637
expenditures to determine whether documentation was sufficient to support the claimed costs. A
confidence level of 95 percent, a precision level of plus or minus 5 percent, and an expected
error rate of 0 percent was used to determine the sample size. A statistical sample was selected
to enable projection of the sample results across the entire universe of reimbursed contract
closeout costs.

We conducted this audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit

                                                 3
                                                                          Attachment (continued)


objective. We believe that the evidence obtained provides a reasonable basis for our conclusions
based on our audit objective. The audit included test of controls and compliance with laws and
regulations to the extent necessary to satisfy the audit objective. In particular, we assessed the
implementation of the GPRA Modernization Act of 2010 as necessary to accomplish the
objective, and determined that it was not applicable to our audit scope. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our audit. We conducted an assessment of computer-processed data and
we deemed the data to be sufficiently reliable.

An exit conference was waived by Savannah River Operations Office management on
February 3, 2014.




                                                4
                                                                    IG Report No. OAS-L-14-03


                           CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
